U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

June 17, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Nidal Ahmed Waked Hatum v. United States, No. 20-1370
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 26,
2021. The government’s response is now due, after one extension, on June 18, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including July 2, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1370
HATUM, NIDAL AHMED WAKED
USA

ELLIOT S. ABRAMS
CHESHIRE PARKER SCHNEIDER PLLC
133 FAYETTEVILLE STREET
POST OFFICE BOX 1029
RALEIGH, NC 27602
919-833-3114
ELLIOT.ABRAMS@CHESHIREPARK.COM
919-832-0739(Fax)
STEPHEN JAMES BINHAK
GREENBERG TRAURIG, P.A.
ONE S.E. THIRD AVENUE
SUITE 2600
MIAMI, FL 33131
305-361-5500
BINHAKS@BINHAKLAW.COM
JOSHUA D. GREENBERG
THE JOSH GREENBERG LAW FIRM PLLC
717 K STREET, NW
SUITE 900
WASHINGTON, DC 20006
202-422-0809
HOWARD MILTON SREBNICK
BLACK SREBNICK KORNSPAN & STUMPF PA
201 S. BISCAYNE BOULEVARD
SUITE 1300
MIAMI, FL 33131
305-371-6421
HSREBNICK@ROYBLACK.COM

